Audit Report
Return
to the USDOJ/OIG Home Page
Working Capital Fund Annual
Financial  Statement  Fiscal Year 2000
Report No. 01-21
September 7, 2001
Office of the Inspector General
COMMENTARY AND SUMMARY
The Working Capital Fund (WCF) is a revolving fund created primarily to provide certain administrative services on a centralized basis.  The WCF is reimbursed for the cost of these services, which includes an amount for operating expenses of the fund.  The WCF also serves as the custodian for amounts collected through civil debt litigation and has the authority to retain up to 3 percent of these collections.  The WCF does not receive appropriated monies from Congress, but is allowed to receive unobligated prior year appropriations from other Department of Justice components.  Amounts transferred to the WCF may be used for the acquisition or improvement of automated systems and capital equipment.
This audit report contains the Annual Financial Statement of the WCF for the fiscal year ended September 30, 2000.  Under the direction of the Office of the Inspector General, PricewaterhouseCoopers LLP performed the audit, which resulted in an unqualified opinion on the FY 2000 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  The WCF also received an unqualified opinion on its FY 1999 financial statements (OIG Report 00-12).  Comparative financial statements were not required this year and are therefore not presented.
Three reportable conditions were identified in the FY 2000 Report on Internal Controls, compared to one reportable condition in FY 1999.  Last year's reportable condition concerning a lack of sufficient security controls over the entity's Financial Management Information System (FMIS) was repeated in FY 2000.  Since the WCF is only an end-user of the FMIS, corrective actions to resolve this condition will be directed to the Justice Management Division of the Offices, Boards and Divisions, which has primary responsibility over FMIS, in their auditor's Report on Internal Controls.
The two other reportable conditions relate to issues involving cash reconciliations and collections.  The auditors noted during FY 2000 that WCF cash reconciliations were not prepared for a significant period of time during the year and that cash collected by the U.S. Attorneys Offices was not always deposited in a timely matter.  No compliance issues were reported for FY 2000.